Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




The External Review of Hospital Quality

            State Initiatives




                    JUNE GIBBS BROWN
                    Inspector General

                       JANUARY 2000
                       OEI-01-97-00054
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the health
and welfare of beneficiaries served by them. This statutory mission is carried out through a nationwide
program of audits, investigations, inspections, sanctions, and fraud alerts. The Inspector General
informs the Secretary of program and management problems and recommends legislative, regulatory,
and operational approaches to correct them.

                         Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of Inspector
General. It conducts short-term management and program evaluations (called inspections) that focus
on issues of concern to the Department, the Congress, and the public. The inspection reports provide
findings and recommendations on the efficiency, vulnerability, and effectiveness of departmental
programs.

OEI's Boston Regional Office prepared this report under the direction of Mark R. Yessian, Ph.D.,
Regional Inspector General. Principal OEI staff included:

REGION                                                HEADQUARTERS

Joyce M. Greenleaf, Project Leader                    Jennifer Antico, Program Specialist

Maria E. Maddaloni

Laura C. McBride





      To obtain copies of this report, please call the Boston Regional Office at (617)565-1050.
         Reports are also available on the World Wide Web at our home page address:

                                http://www.dhhs.gov/progorg/oei
                    EXECUTIVE                        SUMMARY

Purpose

      To describe State government initiatives concerning the external review of hospital quality.



Background

State Initiatives Aimed at Hospital Oversight

      State agencies play important roles in overseeing hospitals, either as agents of the Health Care
      Financing Administration (HCFA), or under their own authorities to license such facilities and
      protect the public. Indeed, many States have developed and implemented initiatives aimed at
      addressing the quality of care in hospitals. This report presents a snapshot of six such initiatives
      that appear promising and could be instructive not only to other States but also to the Federal
      government. We present the initiatives in three categories: standardized performance
      measures, on-site surveys, and public disclosure of information on hospital performance.

      This report is a follow-up to our recent series of reports that assessed the roles of HCFA and
      the Joint Commission in overseeing hospitals that participate in Medicare. In that series, we
      directed recommendations for improvement to HCFA.

      Our information comes from discussions with the pertinent State officials and reviews of
      relevant documents.



Standardized Performance Measures

      These are quantitative indicators that enable regulators, purchasers, and consumers to compare
      hospital performance to itself over time or to other hospitals. They can provide insights into a
      hospital’s performance, foster improvements, and identify outliers.

New York: Using Mortality Data to Measure Hospital Performance

      New York collects and publishes mortality data on coronary artery bypass graft surgery
      (CABG) and other procedures, fulfilling both quality improvement and regulatory functions.


           Hospital Quality: State Initiatives
                                                 1                                    OEI-01-97-00054
Pennsylvania: Creating Performance Report Cards

      Pennsylvania analyzes inpatient data from every hospital in the State to create reports that
      evaluate hospitals on quality-of-care measures such as length of stay, charges, and admission
      rates for CABG, breast cancer, and diabetes, among others. In 1998, it documented a 22
      percent drop in in-hospital mortality for CABG from 1991 to 1995.

On-site Surveys

      On-site surveys are a traditional way to assess directly a hospital’s compliance with Federal,
      State, and local requirements. Many States, however, largely rely on the Joint Commission on
      Accreditation of Healthcare Organizations or surveys funded by HCFA for an on-site presence
      in their hospitals.

Utah: Observing Accreditation Surveys

      Utah relies on surveys by the Joint Commission to determine compliance with its hospital
      licensure requirements. However, Health Department officials participate in the summary
      session at the end of the Joint Commission’s on-site survey. The Department looks to the
      findings of the Joint Commission in determining whether to pursue its own enforcement actions.

New York: Surprise Inspections of Residency Programs

      In 1998, New York launched 12 simultaneous surprise inspections of residency programs at
      teaching hospitals across the State. New York regulates resident working conditions, and these
      surprise inspections marked the State’s first effort to ensure compliance.

Public Disclosure through the Internet

      The Internet provides enormous opportunity for sharing performance information quickly and
      broadly. It can spur hospital improvements and reassure the public that an external review
      process is protecting its safety.

New Jersey: Listing Hospital Enforcement Actions

      New Jersey’s website details resolved hospital enforcement actions, such as fines or other
      penalties imposed for violating licensure or certification regulations. The website also includes
      information about the State’s inspection, licensure, and complaint processes. It updates the site
      quarterly.


          Hospital Quality: State Initiatives
                                                2                                   OEI-01-97-00054
Colorado: Posting Compliance Summaries

     Colorado posts hospitals’ compliance histories on its website. In addition to basic hospital
     information, the website includes a summary of all complaints and serious events reported to the
     State since January 1999. The summaries describe the reported incident, what actions the
     facility took in response, and the Department’s follow-up actions.



Conclusion

     The State initiatives presented in this report show that States can draw on their own authorities
     and resources to add a measure of public protection not provided by either HCFA or the Joint
     Commission. The States have advantages, such as simply being closer to the action, that
     national reviewers would be hardpressed to match. And these advantages help States
     contribute a valuable complement to the existing, national approaches to external hospital
     review.

     State initiatives can also serve as important catalysts for continued national efforts aimed at
     improved hospital oversight. Indeed, the States’ experiences can be instructive to HCFA, the
     Joint Commission, and other States. The initiatives highlighted herein reinforce themes of
     balance and accountability that we promoted in our prior inquiry, which assessed the roles of
     HCFA and the Joint Commission. The States’ experiences with performance measures,
     surprise inspections, and public disclosure demonstrate that such efforts can be both feasible
     and constructive.




         Hospital Quality: State Initiatives
                                               3                                    OEI-01-97-00054
                        TABLE                        OF          CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


Standardized Performance Measures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


         New York: Using Mortality Data . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


         Pennsylvania: Creating Report Cards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


Conducting On-site Surveys . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


         Utah: Observing Accreditation Surveys . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


         New York: Surprise Hospital Inspections . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


Public Disclosure through the Internet . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


         New Jersey: Listing Hospital Enforcement actions . . . . . . . . . . . . . . . . . . . . . 17


         Colorado: Posting Compliance Summaries . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


APPENDICES


         A: Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

         B: Endnotes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24





               Hospital Quality: State Initiatives
                                                             4                                              OEI-01-97-00054
                                 INTRODUCTION

PURPOSE

      To describe State government initiatives concerning the external review of hospital quality.

BACKGROUND

States as HCFA Agents

      State agencies play important roles in helping the Health Care Financing Administration
      (HCFA) ensure that hospitals meet the minimum requirements for participating in the Medicare
      program. Funded by HCFA, they conduct validation surveys of those hospitals accredited by
      the Joint Commission on Accreditation of Healthcare Organizations, determine Medicare
      certification for those hospitals that choose not to be accredited, and respond to complaints and
      adverse events involving hospital care. In a number of recent reports, we addressed how the
      States performed these roles and how HCFA held them (and the Joint Commission)
      accountable for their performance.1 We directed our recommendations for improvement to
      HCFA, which responded with an action plan.

States Under their Own Authorities

      During the course of our prior work, we learned of initiatives that State governments were
      taking under their own authorities to address the quality of care provided in hospitals. Many of
      these were significant initiatives that could be instructive to the hospital quality review efforts of
      the Federal government and of other States. In this report we offer a snapshot of six such
      initiatives.

      We found each of the initiatives promising enough to warrant wider attention, although we did
      not evaluate them. Our information comes from discussions with pertinent State officials and
      from reviews of relevant documents (see appendix A for more details on our methodology).
      We do not suggest that the initiatives presented here represent a comprehensive listing of quality
      review efforts being undertaken by the States; nor do we suggest that they have necessarily
      been successful in achieving their objectives.

      We present the initiatives in three categories: (1) standardized performance measures,
      (2) on-site surveys, and (3) public disclosure on hospital performance. We begin each by
      discussing the relevance of these categories to the external quality review of hospitals.

           Hospital Quality: State Initiatives
                                                 5                                     OEI-01-97-00054
We conducted this inspection in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




    Hospital Quality: State Initiatives
                                          6                                OEI-01-97-00054
                  Standardized Performance Measures

Tools for Improving Performance and Enforcing Minimums

     Standardized performance measures are quantitative indicators that enable regulators,
     purchasers, and consumers to compare hospital performance and ensure that patients are
     receiving quality services. The comparisons can focus on a hospital’s own performance over
     time and/or how its performance compares to other hospitals. Examples of performance
     measures include rates of complication from specific procedures and the preventive
     administration of antibiotics prior to surgery. The data can be drawn from sources such as a
     hospital’s records, billing claims, or surveys of patients or providers.

     External reviewers can use performance data in two fundamentally different ways, both of
     which have value. One way is at root collegial: to foster continuous quality improvement.
     External reviewers collect performance data and distribute them with the intent of providing
     hospitals with comparative information they can use, voluntarily, to improve their own
     performance. If particular hospitals find that their performance is significantly poorer than that
     of others, they can search for factors that explain the difference and for changes that will
     improve their performance.

     The other way is more regulatory: to identify hospitals that are performing poorly in relation to
     any of the designated measures and to hold those hospitals accountable for raising their
     performance to acceptable levels. External reviewers encourage the hospitals to improve
     voluntarily, but could also mandate corrective actions and even penalties.

Realizing the Potential

     The Joint Commission on Accreditation of Healthcare Organizations has been one of the
     leaders in recognizing the potential of standardized performance measures. More than a
     decade ago it set forth a vision for hospital accreditation that would be based largely on data-
     driven clinical performance indicators. But its progress toward this end has been much slower
     than envisioned because of a number of significant obstacles. Three such obstacles have been
     particularly prominent: (1) the technical difficulties associated with the science of measurement
     and risk management, (2) the costs involved in collecting and distributing data, and (3) the
     political concerns raised by sharing performance data with others.

     Although these obstacles remain imposing, the quest to institutionalize performance
     measurement remains strong. The Joint Commission requires, at a minimum, that accredited
     hospitals use a performance measurement system from its list of approved systems.
     Furthermore, in an effort to foster consistent national standards for performance measurement,
     the Joint Commission recently joined with the American Medical Association and the National

          Hospital Quality: State Initiatives
                                                7                                   OEI-01-97-00054
      Committee for Quality Assurance to create the Performance Measurement Council. And at the
      Federal level, HCFA, in the proposed revisions to the Medicare conditions of participation,
      stresses the potential of performance measurement and calls for Medicare-certified hospitals to
      conduct a minimum number of performance improvement projects

      In the presentations below, we address the considerable experience that Pennsylvania and New
      York have had in using discrete hospital performance measures.



NEW YORK: Using CABG Mortality Data to Measure Hospital
Performance
      New York’s Department of Health publishes reports on risk-adjusted coronary artery bypass
      graft (CABG) mortality rates. The annual reports present the number of CABG surgeries
      performed, the number of deaths, and
      three types of mortality rates for each
      surgeon and hospital in the State (see                 Mortality Rates
      box). The Department distributes
      about 2,000 reports per year, which     Reports published by the New York

      also are available on the Internet.     Department of Health present three mortality

                                                rates for each surgeon and hospital
                                                included:
Risk Adjusting and Public Scrutiny
                                                Observed mortality rate - the number of
      Development of these measures             observed deaths divided by the total number
      began in 1988 at the direction of the     of patients who underwent isolated CABG
      Department’s Commissioner as a            surgery.
      way to understand the disparities

      among the mortality rates from            Expected mortality rate - the sum of the

      CABGs in the State’s hospitals. A         predicted probabilities of death for all

      Department statistician developed the     patients divided by the total number of

                                                patients.
      risk-adjustment methodology based
      on risk factors compiled by the
                                                Risk-adjusted mortality rate - the best
      State’s Cardiac Advisory Committee,       estimate, based on the statistical model, of
      a longstanding group of cardiologists     what the provider’s mortality rate would have
      and cardiac surgeons that advises the     been if the provider had a mix of patients
      Department on cardiac-related             identical to the statewide mix. The report also
      matters. These risk factors include       presents a confidence interval for the risk-
      age, gender, comorbidities, and           adjusted mortality rate.
      previous open heart operations.2
                                                Source: Coronary Artery Bypass Surgery in New York
                                                State 1994-1996, New York State Department of Health,
                                                October 1998, p. 8.



          Hospital Quality: State Initiatives
                                                8                                             OEI-01-97-00054
     The Department released the first risk-adjusted CABG mortality rates in 1990 for each
     hospital. An article on the data in the Journal of the American Medical Association noted
     that surgeons performing fewer CABGs had mortality rates that were higher than the surgeons
     who performed a higher volume of CABGs.3 Following this, a Freedom of Information Act
     request and subsequent lawsuit by a New York newspaper led to the release of surgeon-
     specific data. The Department now analyzes and reports data on individual surgeons who have
     performed 200 procedures over a 3-year period or performed at least 1 procedure in each of
     the 3 years evaluated.4

     Since 1994, the Department has published a similar report presenting angioplasty mortality
     data. Within the next year, it will begin publishing a report with data on heart valve surgery
     mortality rates.

Quality Improvement and Regulatory Effects

     The publication of the data has spurred both regulatory actions on the part of the State as well
     as improvements in the quality of care provided in the hospitals. Risk-adjusted data enable the
     Department to compare every facility’s outcomes on a level playing field. The Department has
     used the risk-adjusted mortality rates to identify outlier hospitals, and required one such outlier
     to affiliate with an academic institution. It required two other hospitals to close or suspend their
     cardiac services as a result of their performance data.

     Since the Department began collecting and reporting CABG data, the mortality rate from this
     surgery in New York fell from 3.52 per 100 patients in 1989 to 2.44 per 100 patients in 1998.5
     Some hospitals in the State have initiated their own quality improvement programs based on the
     data from the CABG reports.6 For example, one hospital in the State had higher mortality rates
     and concluded that emergency cases were rushed into surgery without being stabilized. That
     hospital then made changes to ensure patients were stabilized prior to surgery, leading to an
     improvement in its mortality rate. In another hospital, the mortality data led to personnel
     changes. That hospital determined it was unable to handle the severe cardiac cases, so it
     referred such cases to other hospitals until it could expand its own ability to handle them.



PENNSYLVANIA: Creating Performance Report Cards

     Pennsylvania, too, collects and disseminates data on CABG surgery and has done so annually
     since 1993. In 1998, the Pennsylvania Health Care Cost Containment Council (hereafter
     referred to as the Council) released its fifth CABG report, which includes risk-adjusted
     measures of mortality, length of stay, and average charges. The report lists each measure
     individually by hospital, physician, and most recently, by health plan in the State. In addition to
     its annual CABG reports, the Council produces other reports addressing a range of health
     issues such as caesarean-section rates, breast cancer, heart attacks, osteoporosis, drug use,

          Hospital Quality: State initiatives
                                                9                                    OEI-01-97-00054
     and diabetes. These issue briefs provide State-wide information on, for example, charges,
     average length of stay, and admission rates. The Council recently reissued for the first time
     since 1994 the “Hospital Effectiveness Report,” which includes data on 15 DRGs.7 For each
     DRG and each hospital, this report highlights risk-adjusted mortality, average length of stay,
     and average charges (see box).




                                                Source: Pennsylvania Health Care Cost Containment Council,
                                         A Hospital Performance Report-Region 1, 1999 (99-07/04-11/1), p. 7.




     Pennsylvania began this data initiative in 1986, when, at the urging of State business and labor
     leaders, its legislature created the Health Care Cost Containment Council.8 One of the
     Council’s charges is to contain health care costs by stimulating competition among hospitals.
     By compiling and releasing hospital data on charges and outcomes, the Council aims to provide
     purchasers and consumers with information—thereby promoting more informed decisions and
     choices among health care providers—and thus drive down health care costs. The 21-member
     Council includes representatives from business, organized labor, hospitals, physician groups,
     and insurance companies, as well as consumers. The Secretary of the Department of Health is
     also a Council member, however there is little interaction between the Department and the
     Council.9

Documented Improvements in Data Indicators

     The 1998 CABG report identified a 22 percent drop in in-hospital mortality for CABG surgery
     from 1991 to 1995 while the number of cases in the State increased. Also, the average charge
     for CABG surgery decreased 3.9 percent.10 Similarly, caesarean-section rates have dropped
     across the State while the rate of vaginal births after a caesarean-section has increased.11
     Many attribute the measured improvements to hospitals’ own use of the data for internal
     improvement projects and to guide staff recruitment efforts.12 There has been some debate on
     the actual impact on consumers of the Council’s data releases. Some argue that the data is


          Hospital Quality: State initiatives
                                                        10                                              OEI-01-97-00054
      most helpful for hospitals and purchasers, rather than consumers. However, a 1996 survey
      found that 20 percent of the heart-surgery patients surveyed were aware of the CABG report.13

Data Collection Is Resource Intensive

      These improvements come at a significant cost to hospitals. The Hospital Association estimates

      that the software mandated by the State costs Pennsylvania hospitals $10 million and an

      additional $40 million for the separate data abstraction. Hospitals can use the software system

      for their own efforts but must buy back any data generated by the State. Furthermore,

      hospitals are concerned about the validity of the data. They note that certain factors, such as

      “Do Not Resuscitate” orders, are not taken into account by the software. As a result, the data

      may show a hospital with a significantly higher mortality than is actually true. Despite the

      burden of data collection and submission, it appears that hospitals find the available data helpful. 





           Hospital Quality: State initiatives
                                                 11                                   OEI-01-97-00054
                                          On-site Surveys

The Core Element of the External Review Process

     Traditionally, the on-site survey of hospitals has been the key element of the external review
     process. Through on-site surveys, the surveyors can assess first-hand how well hospitals are
     meeting established requirements and can offer information and advice for hospitals seeking to
     improve their performance. The surveyors can observe conditions, review records, and
     interview administrators, clinical staff, and patients.

     As part of its accreditation process, the Joint Commission conducts on-site surveys every 3
     years to review hospital compliance with over 500 standards in 45 performance areas. The
     surveys range from 2 to 5 days, depending on the size of a hospital. The Joint Commission
     supplements these surveys with a small number of random, unannounced, and briefer surveys
     intended to assess continued compliance with standards. Occasionally, it will also visit hospitals
     to investigate complaints or adverse events.

     The State agencies also conduct surveys. For accredited hospitals, they perform validation
     surveys and respond to complaints and adverse events under agreement with HCFA. For
     nonaccredited hospitals, they conduct routine on-site surveys, but because of resource
     constraints they use on-site surveys primarily for responding to complaints or adverse events.

Using Survey Resources Strategically

     On-site surveys serve as a central, resource-intensive part of the external review process.
     Given that, it is especially important that the resources devoted to on-site surveys be used
     strategically. Among the key questions that the Joint Commission, State agencies, and HCFA
     must consider are these: How can surveys best be targeted to problem areas? How often
     should surveys be conducted? What should be the balance between announced and
     unannounced surveys? Between routine surveys and surveys conducted in response to
     complaints and/or adverse events?

     These questions have particular relevance for the Joint Commission because it accredits about
     80 percent of the 6,200 hospitals that participate in Medicare and because 30 States deem
     hospitals accredited by the Joint Commission to meet their licensure requirements. But a
     number of States have taken initiatives that aim to add an on-site presence and a measure of
     patient safety beyond that afforded by the accreditation process. Below, we present Utah’s
     participation in Joint Commission accreditation surveys and New York’s unannounced visits to
     teaching hospitals.




          Hospital Quality: State initiatives
                                                12                                 OEI-01-97-00054
UTAH: Observing Accreditation Surveys
      Utah retains the unique authority to attend a deemed hospital’s accreditation survey and to take

      action based on that survey. This authority allows the State to balance scarce resources and

      hospital burden while maintaining a prominent presence in hospitals. 


      Each year, when hospitals must apply for a license to operate in Utah, they have the option of

      initiating, continuing, or relinquishing deemed status. Thirty-two of the State’s 51 hospitals are

      accredited and have chosen to be deemed. By opting for deemed status, hospitals forego the

      annual licensure surveys conducted by the State, and the State relies instead on the survey

      conducted by the accrediting organization (usually the Joint Commission). However, as

      outlined in regulation, request for deemed status automatically authorizes officials from the

      Department of Health to attend part of the hospital’s accreditation survey. Deemed hospitals

      must notify the State of their upcoming accreditation surveys. On the last day of the survey, a

      Department official attends the closing conference. Generally, the Department official takes

      notes and acts as an observer, but he or she can and will ask questions if necessary. In

      addition, Joint Commission surveyors have, on occasion, made themselves available after the

      conference for further discussion. After the conference, the official reports back to the

      Department on all deficiencies. The Department can then take action based on this report and

      its assessment of the accrediting body’s findings. If warranted, the Department can cite a

      deficiency under licensure authority while on-site and often will interview hospital officials to find

      out more information about the deficiencies. 


Observing Accreditation Surveys Allows for Timely Action

      Utah requires hospitals to submit, as many other States do, the final Joint Commission
      accreditation report to the State. However, the Joint Commission does not issue its final report
      until up to 120 days after the survey, and hospitals then have another 60 days to respond. If
      there were significant or immediate problems at the hospital, the Department would be unaware
      of them until well after the fact. By attending the conference, officials can hear the results first-
      hand and take immediate action if they feel it is warranted. In 1998, the Department cited three
      hospitals on-the-spot based on attendance at such conferences. The Department’s presence at
      the conferences also allows it to learn about any supplemental deficiencies, which are generally
      excluded from the Joint Commission’s final report.



NEW YORK: Surprise Inspections of Residency Programs
      In March 1998, New York’s Department of Health conducted surprise inspections of
      residency programs simultaneously in 12 of the State’s teaching hospitals. This was the
      beginning of an effort to oversee hospitals’ compliance with the State’s residency law, known


           Hospital Quality: State Initiatives
                                                 13                                    OEI-01-97-00054
      as the Bell Regulations. New York is the only State that regulates resident working conditions

      in its State hospital code. 


      The State conducted the inspections by sending survey teams into the 12 teaching hospitals

      simultaneously on a Thursday afternoon. Surveyors then stayed on-site through the weekend. 

      Survey teams consisted of Department

      field workers, including registered

                                                              Bell Regulations
      nurses who conducted medical record

      reviews to assess physician supervision In 1989, New York established the Bell
      of residents’ cases.                     Regulations to cover supervision of residents
                                                 by attending physicians and to limit the hours
      The inspections focused on residents’     worked by residents in the State’s teaching
      working hours and supervision by          hospitals. The impetus for these regulations
      attending physicians. Surveyors           was the death of a woman in a New York City
      assessed compliance with the State’s      emergency room; a grand jury probe
      working hour limitations by examining subsequently found problems with residency
                                                training.
      posted schedules, then observing
      residents as they went on- and off-shift New York City’s public advocate published
      to assess their true working hours. The reports in 1994 and 1997 that revealed
      Department used the data collected on violations of the Bell regulations in New York
      residents’ working hours to calculate a City’s teaching hospitals. The cited violations
      sample work week, which estimated         included both insufficient supervision and
      residents’ work schedules. To             excessive hours worked by residents. In
      determine adequacy of supervision,        1998, State legislators questioned the
      surveyors reviewed medical records for Department’s Commissioner about Bell
                                                Regulation compliance, which led to the
      evidence that physicians supervised the
                                                surprise inspections.
      residents’ cases, and tested the on-call
      system by having residents contact their
      respective attending physicians. In
      addition, surveyors interviewed residents and physicians to learn more about supervision and
      working hours.

Violations of working hour limits

      In May 1998, the Department released a report with its inspection findings. The State found
      supervision of residents by attending physicians that was both timely and in-person. The main
      problem uncovered was with residents’ working hours: 37 percent of residents worked more
      hours than the regulations allow. Surgical residents violated regulations the most: 79 percent
      exceeded the working hour limits. Residents exceeded the working hour limits the most in New
      York City area hospitals; there, 40 percent of all residents and 94 percent of surgical residents
      exceeded the working hour limits.14



          Hospital Quality: State Initiatives
                                                14                                    OEI-01-97-00054
The Department intends to conduct these surprise inspections in each teaching hospital in the
State targeted for review. To date, the Department has surveyed about 30 percent of the
teaching hospitals. Once it conducts an initial surprise inspection in a teaching hospital, it plans
to enforce the Bell Regulations with follow-up surveys and by assessing corrective action plans
produced by the hospitals. Follow-up surveys have been conducted in 50 percent of the
hospitals surveyed in the original study. Since these inspections began, the Department and the
State’s hospital associations have conducted training sessions on compliance with the Bell
Regulations with teaching hospitals.




     Hospital Quality: State Initiatives
                                           15                                   OEI-01-97-00054
                Public Disclosure through the Internet

A Mechanism for Fostering Accountability

     With the rapid development of information technology, new opportunities have opened up for
     sharing more information, more quickly, to wider audiences. In regard to the external quality
     review of hospitals, this development means that the Internet now exists as a significant forum
     for informing consumers, health care purchasers, the media, and other interested parties about
     the performance of hospitals. The hospitals’ traditional accountability to private accrediting
     entities and public bodies can now be supplemented with direct accountability to the public.

     In particular, posting on Internet websites can be an important way for external reviewers to
     present information to the public on how hospitals fared during the review process. It can serve
     as a way of revealing hospital shortcomings as well as strengths, of indicating how performance
     has changed over time, and even of indicating how they compare with one another on certain
     measures. Furthermore, it can serve as a key motivator for hospitals to improve their
     performance and can reassure the public that an external review process is protecting its safety.

     In the same context, the posting of information on the Internet can also be a tool for holding the
     reviewers--the Joint Commission, the State agencies, and HCFA--more fully accountable to
     the public. Such information can address the extent and type of review efforts conducted as
     well as any evaluative information on the reviewers themselves.

Finding the Way There

     The public disclosure of information along the lines indicated above is in the earliest of stages.
     Little is now available. To a significant degree, the technical, financial, and political constraints
     that inhibit the use of standardized performance measures also restrict the use of the Internet as
     an information-sharing forum.

     HCFA now lacks a website offering information on the performance of hospitals or
     reviewers.15 The Joint Commission has been more proactive in this regard as it makes hospital
     performance reports available on its website. But the extent and type of information it offers is
     minimal. A few States, acting on their own authority, are becoming even more proactive in this
     regard. Below we discuss the early experiences of New Jersey and Colorado.




          Hospital Quality: State Initiatives
                                                16                                    OEI-01-97-00054
NEW JERSEY: Listing Hospital Enforcement Actions on the
Internet
      In May 1998, the New Jersey Department of Health and Senior Services unveiled a website

      detailing hospital enforcement actions, such as fines or other penalties imposed for violating

      licensure or certification regulations.16 Visitors to the website can access information on

      resolved hospital enforcement actions in New Jersey hospitals that the Department

      investigated.17


      The website contains documentation of the enforcement actions, as well as the actual penalty

      letter the Department sent to the hospital, which outlines the findings of the investigation,

      describes the licensing violations in

      greater detail, and gives legal citations

                                                  Information on New Jersey’s Website:
      for each violation (see box). It also

      includes information about how the          Name and address of hospital

      Department inspects hospitals and the       Enforcement date

      State’s hospital licensure and complaint Enforcement action

      process. It explains how consumers          The issue

      can file a complaint against a hospital or General area of Licensing Standards

      review an inspection file for further       How the violation was found

      information on an enforcement action.       Hospital’s plan of correction

      The Department updates the site             Hospital’s appeal status

                                                  Penalty letter sent to the hospital

      quarterly with resolved enforcement
      actions and leaves the information on       Source:
      the website for 15 months.                  http://www.state.nj.us/health/hcsa/hospfines/hfines.htm


Making information available to
consumers

      Over a 6-month period in 1996, the Asbury Park Press, a New Jersey newspaper, published
      a series of articles called “Vital Signs” that examined the quality of hospital care in the State.
      The series focused, in part, on the lack of information available to consumers on the quality of
      hospitals. It found that “[hospital] fines are effectively a private matter. Seldom are fines
      announced or made readily available to the general public, even though such information is a
      public record. Fines are not printed in any official state publication and no press releases are
      sent to the media.”18 At the time, a consumer would have to contact the Department and
      request information about a hospital’s violation of licensing standards.

      During the publication of “Vital Signs,” the newspaper’s editorial board met with the
      Commissioner of the Department to discuss issues raised in the series. The series included
      recommendations that the Department make information about hospital violations more


           Hospital Quality: State Initiatives
                                                 17                                    OEI-01-97-00054
      available to consumers. In early 1997, the Commissioner’s Office began a workgroup to
      develop a website detailing hospital fines and enforcement actions.

Consideration and concerns about the website’s information

      When creating the site, the workgroup carefully considered what information to include and
      how to present it. Because New Jersey keeps information about hospital enforcement actions
      confidential until the hospital has a chance to respond, the Department makes it clear to the
      website’s readers that the hospital violations listed in the site have been corrected and the
      hospitals listed are now in compliance. In addition, the website cautions the reader:

             Please note that this report offers only a one-time “snap-shot” of hospital
             performance. To more fully assess the quality of care provided by a hospital, it is
             important that you review current and past survey reports. You may also wish to
             discuss hospital services and performance levels with your doctor and with family
             members or friends who have used the facility.

      Given that the information provided is publicly available, the New Jersey Hospital Association
      does not object to the website. However, it has concerns with how the Department presents
      the information. It is concerned that visitors to the website will be unable to easily discern the
      gravity of the deficiencies listed due to the regulatory language used, which may make the
      complaints seem worse than they actually are. In addition, the Association felt that keeping the
      information on the website for 15 months was too long, since a hospital would still be listed on it
      after having rectified the deficiency.



COLORADO: Posting Compliance Summaries on the Internet
      On the Colorado Department of Public Health and Environment website, the public can find a
      compliance history covering the past couple of years for each hospital in the State.19 The
      website includes basic information on the hospital, such as its accreditation status, ownership,
      address, and associated facilities, in addition to summaries of all complaints and serious events,
      referred to as “occurrences,” reported to the State since January 1999.20 The summaries
      describe the reported incident, what actions the hospital took in response, and the
      Department’s follow-up actions (see the box on the following page for an example). The
      hospitals are also able to provide responses to the summaries. In the future, the State plans to
      include a list of deficiencies found during State licensure surveys and Medicare certification
      surveys in addition to the occurrence and complaint summaries.




          Hospital Quality: State Initiatives
                                                18                                   OEI-01-97-00054
Emerging Activity and Refinement

     Since 1987, Colorado has mandated that hospitals file occurrence reports with the State. All
     hospitals, and more recently all licensed health facilities in the State, must submit reports of
     specific types of incidents within one business day of when the incident took place. Examples
     of such reportable
     occurrences include                             Occurrence Summary Report
     deaths from
     unexplained causes,       Facility: XYZ

     missing persons,          Date of Occurrence: 1/30/99

     physical and sexual       Report Timely: Yes

                               Type of Occurrence: Brain Injury 

     abuse, and life-
     threatening reactions     Description of Occurrence: On 01/30/99, a female patient was given
     to anesthesia or          10mgm of morphine for pain intravenously. It was ordered
     transfusions. In 1995, intramuscularly. The patient suffered a respiratory arrest. The patient
     the Colorado media        expired in intensive care on 02/03/99.

     criticized the            Facility Action: The facility was unaware of the medication error at
     confidential nature of the time of the respiratory arrest. The patient was resuscitated and
     these reports. Soon       moved to intensive care. The physician and family were notified. The
     after, the State          facility became aware of the medication error about three hours after
                               the medication was given. The physician and family were made aware
     decided to make           of the error. The nurse administering the medication was suspended
     summaries of the          and terminated.
     reports available to
     the public from their     Department Findings: The Department conducted an on-site
     offices in Denver. To investigation and a HCFA authorized hospital survey as a result of
                               this occurrence. The facility was cited for deficient practice for not
     make the summaries        assuring the competency of the nursing staff, for lack of accountability
     more widely available of the governing body and for deficient practice in the quality
     to the rest of            management functions of the hospital. The Department will conduct
                               ongoing monitoring of facility compliance under the supervision of
     Colorado, the
                               HCFA. The Department will review all facility occurrences during this
     Department began          monitoring process.
     posting occurrence
     summaries on the          Sent to Facility: 7/27/99
     Internet in early 1998
                               Facility Comment: No facility comment received at this time
     as they were released
     to the public. More       Released to Public: 8/6/99
     recently, the State has
     reorganized its                 An example of an occurrence summary from the Colorado website.
     database capabilities
     and its website, and
     now posts the reports by facility and includes information on complaints.




          Hospital Quality: State Initiatives
                                                19                                   OEI-01-97-00054
Recognizing the Sensitivities

      With such widely available information, hospitals in Colorado are concerned that what might be
      an isolated event could be generalized across an entire facility. The media, also, are able to run
      attention-grabbing stories about incidents from the information made public. In an effort to
      further educate the public and alleviate any potential concerns from hospitals, the website
      includes language helping put occurrence reports in context and excludes the names of staff or
      patients.




          Hospital Quality: State Initiatives
                                                20                                  OEI-01-97-00054
                                     CONCLUSION

      States rely on both the Health Care Financing Administration (HCFA) and the Joint
      Commission for the external review of the hospitals operating within their boundaries. They
      receive funds from HCFA to determine nonaccredited hospitals’ compliance with the Medicare
      conditions of participation and to respond to adverse events and complaints in all Medicare-
      participating hospitals. Over half the States deem Joint Commission accreditation to meet their
      State licensure requirements.21

State Initiatives as Complements to HCFA and the Joint Commission

      The State initiatives presented in this report show that States can draw on their own authorities
      and resources to add a measure of public protection not provided by either HCFA or the Joint
      Commission. States have advantages that the other external reviewers would be hardpressed
      to match. In particular, States are closer to the action in their hospitals than a national reviewer
      like the Joint Commission could ever be. They are more likely to know the hospitals’ histories
      and the local market and be up-to-date on events such as union disputes and mergers, and
      trends such as local nursing shortages. As a result, States can act swiftly when needs arise.

      These advantages can help States contribute a valuable complement to the existing, national
      approaches to external review. They can craft oversight initiatives to meet a need unique to
      their State, like New York did with its surprise surveys that assessed compliance with its
      residency regulations. Alternatively, they can build on that existing national system of oversight,
      like Utah, thereby extending that system’s value to the State. Or they can develop initiatives
      that fill in gaps left by the approaches of HCFA or the Joint Commission. Both New York and
      Pennsylvania did that with their data collection efforts.

State Initiatives as Instructive to HCFA, the Joint Commission, and Other States

      States can serve as important catalysts for continued national efforts aimed at improved hospital
      oversight. In fact, these States’ initiatives and others that are underway can be instructive to
      HCFA and the Joint Commission, as well as to other States.

      In our previous series, which examined the roles of HCFA and the Joint Commission, we
      stressed two themes in our recommendations to HCFA that are reflected in the initiatives
      highlighted herein: balance and accountability. We called for HCFA to promote balance
      between approaches to oversight that are collegial (oriented toward education and
      improvement) and regulatory (oriented toward ensuring minimum protections). This has
      particular relevance for the use of performance measures, which we called for to be used in
      ways that not only foster improvements but also in ways that help identify and deal with poor


           Hospital Quality: State Initiatives
                                                 21                                    OEI-01-97-00054
performers. New York and Pennsylvania’s experiences with performance measures
demonstrate that such balanced uses are both feasible and constructive.

Our previous series also called for HCFA to better use unannounced hospital surveys as a
another way to introduce more balance between collegial and regulatory approaches to hospital
oversight. New York’s recent surprise hospital inspections provide insights into how one State
managed to coordinate a State-wide unannounced inspection process.

The other theme from our prior series--increased accountability--is reflected in the States’
initiatives as well. New Jersey, Colorado, New York, and Pennsylvania all now have a body
of experience with releasing hospital- or physician-specific performance information in various
forms. Releasing such information promotes accountability on the part of the hospital as well as
the State. Each of these States overcame concerns that have inhibited national efforts at similar
disclosures, such as those about risk-adjustment and public misunderstanding the information.
Their efforts illustrate the potential of public disclosure as a means to increasing accountability.




     Hospital Quality: State Initiatives
                                           22                                   OEI-01-97-00054
                                                                       APPENDIX A



                                          Methodology


We identified the initiatives highlighted in this report through a mail survey of State survey and
certification agencies, follow-up telephone calls, and a literature review.

As a part of our larger inquiry on the external review of hospital quality, we mailed a pretested
survey to the State survey and certification agencies in the 50 States and the District of
Columbia in August 1997. The response rate was 100 percent. The State survey addressed
four areas of hospital quality oversight: State licensure of hospitals, private accreditation,
Medicare certification, and Health Care Financing Administration oversight of State certification
agencies. We also interviewed some State officials on the telephone and in person.

We followed up the mail survey with telephone calls in July and August, 1998 to collect more
information about hospital licensure and any special initiatives underway in each State. The
response rate for this survey was 100 percent.

We identified several State initiatives through the mail and telephone surveys, of which we
selected nine for follow-up: Colorado, Massachusetts, New Jersey, New York (two initiatives),
Ohio, Pennsylvania, South Carolina, Utah. Our criteria for defining a State initiative in hospital
oversight were rather broad: that the initiative be led by the State, that it be implemented as
opposed to planned, and that some minimum time with it had elapsed.

With the exception of New York, which we visited on-site, we conducted the follow-up on the
initiatives through telephone interviews, reviewing documents, and searching the literature and
popular media. Our telephone interviews included not only State officials but also
representatives of the State hospital associations for some States. We conducted this follow-up
in the fall of 1998 and then updated our information in the summer and fall of 1999. During this
time, we eliminated three States from our sample of initiatives: Massachusetts, because its
initiative was not led by the State; Ohio, because its experience with its initiative was too
limited; and South Carolina, because it abandoned its initiative over the course of our inquiry.

For each of the remaining initiatives, we confirmed the accuracy of our information with officials
directly involved in the initiatives.




    Hospital Quality: State Initiatives
                                               23                              OEI-01-97-00054
                                                                             APPENDIX B


                                                  Endnotes


1. Office of Inspector General, The External Review of Hospital Quality: A Call for Greater
Accountability (OEI-01-97-00050), The External Review of Hospital Quality: The Role of
Accreditation (OEI-01-97-00051), The External Review of Hospital Quality: The Role of
Medicare Certification (OEI-01-97-00052), and The External Review of Hospital Quality:
Holding the Reviewers Accountable (OEI-01-97-00053), July 1999.

2. New York State Department of Health, Coronary Artery Bypass Surgery in New York State
1994-1996. See also Edward L. Hannan et al, “Improving the Outcomes of Coronary Artery Bypass
Surgery in New York State” Journal of the American Medical Association 271 (March 1994) 10:
761-766.

3. Edward L. Hannan et al, “Investigations of the Relationship between Volume and Mortality for
Surgical Procedures Performed in New York State Hospitals,” Journal of the American Medical
Association 262 (28 July 1989) 4: 503-510.

4. Previously, surgeons included in the report had to have performed 200 CABG operations during the
3-year reporting period. ( New York State Department of Health, Coronary Artery Bypass Surgery
in New York State 1994-1996, October 1998, p. 11)

5. Current results are based on data from 1994-1996; the latest mortality rates were released in
October 1998.

6. The Department recently reprogrammed its data collection software, enabling hospitals to more
readily examine their own data.

7. The DRGs were selected based on their high volume, cost, and wide variation in mortality.

8. “Because of the continuing escalation of costs, an increasingly large number of Pennsylvania citizens
have severely limited access to appropriate and timely health care. Increasing costs are also
undermining the quality of health care services currently being provided.” Health Care Cost
Containment Act, P.L. 783, No. 123, Sec. 2 (1992).

9. The Council and the Department did collaborate and combine data for a report on caesarean-
section rates.

10. Pennsylvania Health Care Cost Containment Council, Pennsylvania’s Guide to Coronary Artery
Bypass Graft Surgery 1994-1995, May 1998 (98-05/01-07), p.1.



            Hospital Quality: State Initiatives
                                                     24                              OEI-01-97-00054
                                                                                APPENDIX B


11. Pennsylvania Health Care Cost Containment Council, Cesarean Section Deliveries in
Pennsylvania 1995, October 1997 (97-10/01-02), p. 1.

12. J.M. Bentley and D.B. Nash, “How Pennsylvania hospitals have responded to publicly released
reports on coronary artery bypass graft surgery,” Joint Commission Journal of Quality
Improvement 24 (January 1998)1: 40-49; Ron Winslow, “Making the Grade: Improvements in quality
of care suggests hospitals are taking reports cards to heart” Wall Street Journal, 19 October 1998,
16.

13. E.C. Schneider and A.M. Epstein “Use of Public Performance Reports: A Survey of Patients
Undergoing Cardiac Surgery,” Journal of the American Medical Association 279 (May 1998) 20:
1638-1642.

14. For the purpose of the inspections, a sample work week for residents was calculated. Bell
Regulations limit resident working hours to 80 hours per week, averaged over a 4-week period.

15. It does, however, offer such a website with regard to nursing homes.

16. The website’s address is http://www.state.nj.us/health/hcsa/hospfines/hfines.htm (accessed
September 1999).

17. New Jersey also has websites that have similar information on nursing homes and emergency
medical services.

18. Paul D’Ambrosio, “Some Say Low Fines Discourage Hospitals from Following Rules,” Asbury
Park Press, 3 November 1996.

19. The site includes facility profiles for all healthcare facilities in Colorado, including physical therapy
clinics, psychiatric hospitals, dialysis facilities, and nursing homes.

20. See http://www.hfd.cdphe.state.co.us/info.asp (accessed September 1999).

21. Thirty-four of 51 States (including the District of Columbia) deem Joint Commission accreditation
to meet their State licensure requirements for hospitals. Of those 34, 5 deem only for the year
coinciding with the Joint Commission’s on-site survey.




            Hospital Quality: State Initiatives
                                                  25                                    OEI-01-97-00054
